           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    NONCITIZENS ISSUED MULTIPLE
     SOCIAL SECURITY NUMBERS


    December 2012   A-06-10-20155




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:   December 10, 2012                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Noncitizens   Issued Multiple Social Security Numbers (A-06-10-20155)


        OBJECTIVE
        Our objective was to determine whether Social Security Administration (SSA) controls
        ensured the Agency’s information systems properly identified noncitizens who obtained
        multiple Social Security numbers (SSN).

        BACKGROUND
        When SSA assigns an SSN to an individual, the Agency creates a master record of
        relevant information about the numberholder in its Numident file. This information
        includes, but is not limited to, the numberholder’s name, date of birth, place of birth,
        gender, parents’ names, and citizenship status. 1

        Generally, SSA will assign an individual only one SSN. Under certain circumstances,
        SSA can approve issuance of an additional SSN. The most common circumstances
        include when evidence clearly indicates the numberholder’s SSN has been misused,
        that he/she is disadvantaged by that particular misuse, and the misuse affects his/her
        credit record. When SSA issues an individual more than one SSN, the Agency must
        cross-refer the SSNs to properly credit the individual's earnings to his/her earnings
        record and prevent payment of duplicate claims.

        Noncitizens may apply for an SSN through a local SSA field office. SSA also has
        agreements with the Departments of Homeland Security (DHS) and State to assist SSA
        in enumerating noncitizens admitted as lawful permanent residents. If a lawful
        permanent resident wishes to apply for an original SSN under the enumeration-at-entry
        (EAE) process the Department of State collects enumeration data during the immigrant
        visa process, and electronically transmits the data to DHS. When




        1
         Certain numberholder information, like last name or citizenship status, can change over time. SSA does
        not update the Numident unless numberholders report these changes.
Page 2 - The Commissioner


the lawful permanent resident is admitted into the United States, DHS electronically
transmits the enumeration data to SSA so that an SSN can be assigned, eliminating the
need to file an SSN application at an SSA field office. 2

We initiated this review in response to a criminal case where a noncitizen fraudulently
obtained approximately $55,000 in Federal housing and Supplemental Security Income
payments. The individual concealed her earnings by obtaining and using two SSNs—
one for employment purposes and the other to obtain low-income benefits through the
Department of Housing and Urban Development and SSA. The individual was
sentenced to 10 months in Federal prison and ordered to pay restitution.

Numident records indicated that both SSNs used in the fraud scheme contained
identical first and similar last names. The SSNs also contained identical dates and
places of birth and fathers’ names. For this review, we focused on instances where
non-cross-referred SSNs contained matching first, middle, and last names; dates and
places of birth; gender; and mothers’ and fathers’ names. See Appendix C for
additional information on our scope and methodology.

RESULTS OF REVIEW
SSA developed and implemented controls to prevent issuance of multiple SSNs to
noncitizens (for additional background, see Appendix B). However, SSA’s records
indicated that, on occasion, the controls did not prevent the unauthorized issuance of
multiple SSNs to noncitizens. 3

We identified 4,317 instances where the Numident record of 2 SSNs assigned to
noncitizens contained matching first, middle, and last names; dates and places of birth;
gender; and fathers’ and mothers’ names. In each case, SSA had not cross-referred
the records, indicating that SSA either was not aware it assigned two SSNs to the same
noncitizen or it believed the numberholders were not actually the same person. 4

These SSNs were issued because controls did not always prevent issuance of two
SSNs when noncitizens submitted multiple SSN applications or obtained an SSN
through both the EAE process and an SSN application submitted in an SSA office. 5

2
    SSA, POMS, RM 10205.600.A (effective April 3, 2012).
3
 According to SSA, excluding SSNs issued to U.S. citizens through the enumeration at birth process,
SSA issues about 1.3 million new SSNs each year. The 4,317 cases represent a small fraction of new
SSN issuances.
4
 It is possible that foreign-born twins with the same first, middle, and last names both immigrated to the
United States and obtained SSNs. However, SSA’s enumeration records do not denote these instances.
5
 We previously identified control weaknesses associated with the EAE process and recommended
corrective action in reports, Assessment of the Enumeration at Entry Process (A-08-04-14093), March 15,
2005, and Follow-up: Assessment of the Enumeration at Entry Process, (A-08-07-17143), March 20,
2008.
Page 3 - The Commissioner


Noncitizens who obtain multiple SSNs can use the SSNs to commit fraud against
various Federal programs or conceal work activity.

Multiple Non-Cross-Referred SSNs Issued to Noncitizens

SSA’s records indicated that, in 4,116 cases, the noncitizens obtained both SSNs by
filing applications in SSA offices. In 201 instances, noncitizens received 1 SSN via the
EAE process and the other by submitting an SSN application at an SSA office.

Timing and Proximity of SSN Card Issuances

In most cases, the same office processed both SSN applications within 30 days of each
other, making it more likely the same individual obtained both SSNs.

                         Table 1. Time Lapse Between SSNs Issued
                                Enumerated in the           Enumerated in
                 Days                                                                     Total
                                  Same Office              Different Offices 6
              Same Day                 251                          76                      327
                1-7 Days             1,252                        180                     1,432
               8-30 Days               948                        213                     1,161
            31-100 Days                509                        133                       642
           Over 100 Days               360                        395                       755
                    Total            3,320                        997                     4,317

•     Of the 251 cases enumerated on the same day in the same office, 216 occurred
      before Calendar Year 2000. Seven of eight cases that occurred during Calendar
      Years 2009 to 2011 involved SSNs issued via the EAE process.

•     In cases where SSA issued the SSNs on the same day, but from different offices, we
      determined that, in most instances, the SSA offices were in relative proximity to each
      other, 7 making it more likely the same individual applied for both SSNs. For
      example, SSA issued same-day pairs of SSNs from the Brooklyn Card Center and
      the Brooklyn Flatbush, New York, field office; the Southeast and Downtown field
      offices in Houston, Texas; and the Chinatown and Downtown field offices in San
      Francisco, California. However, even in instances where the issuing field offices
      were not in proximity to each other, SSA records indicated the same individuals
      obtained both SSNs. For example, SSA records show that, on the same day in
      1989, siblings from Mexico obtained SSNs from SSA offices in both Texas and
      California.




6
 Includes 57 instances where the Numident record for one of the SSN pairs did not identify the specific
SSA office that processed the original SSN issuance.
7
    In 56 of 76 instances, the SSA offices were located within 100 miles of each other.
Page 4 - The Commissioner

Same Alien Registration Number Used for Both SSNs

An Alien Registration Number (ARN) is a unique identifier DHS issues to noncitizens. In
most cases, SSA’s enumeration records did not include an ARN. However, in 58 cases,
enumeration records for both SSNs cited the same ARN, indicating SSA issued the
same individual two SSNs or two different people obtained SSNs using the same ARN. 8

SSA System Controls Preventing Duplicate SSN Issuance

Analysis of duplicate SSN issue dates indicated that SSA’s system controls had
become more effective at preventing inadvertent issuance of multiple SSNs to the same
individual. The frequency of occurrence of these cases has declined significantly—SSA
issued about 87 percent of the duplicate SSNs before Calendar Year 2001.

                                            Number of Duplicate
                            Period
                                               SSNs Issued                  Percent
                                       9
                        2001 to 2011               542                        12.6
                        1991 to 2000             1,487                        34.4
                        1981 to 1990             2,288                        53.0
                                Total            4,317                       100.0

Potential for Fraud

We initiated this review in response to a criminal case where a noncitizen obtained and
used two SSNs to defraud Federal benefit programs. 10 For all 4,317 instances where
SSA issued 2 SSNs to noncitizens whose Numident records matched, we reviewed
SSA records for claims and earnings activity. We did not identify any instances where
SSA issued benefit payments under both SSNs. However, we identified other activity
on these records that indicated potential abuse or fraud. 11

•     In 514 instances, SSA’s records indicated that work activity was reported under both
      SSNs. In 170 cases, at least 5 years of earnings were reported under both SSNs; in
      80 of the 170 cases, at least 10 years of earnings were reported under both SSNs.



8
  SSA informed us that in October 2011, it enhanced its automated process to check enumeration records
for duplicate ARNs and will not issue a different SSN if found.
9
    Our analysis included all matching records as of August 2011.
10
   At the time of our review, SSA had not cross-referred the SSNs or annotated both records to include
fraud indicator codes. We worked with the Agency to update the records.
11
  We did not attempt to contact any of the numberholders identified during our review. In most cases,
the individuals were not Social Security beneficiaries, so SSA’s records did not identify the individuals’
addresses or telephone numbers. However, we referred a number of specific cases to our Office of
Investigations for potential criminal investigation.
Page 5 - The Commissioner


     For these records, the potential exists for the same individual to obtain multiple
     disability or retirement benefits. 12 SSA’s earnings records indicated that

      an individual used one SSN for earnings from 1991 to 2000 and the other SSN
       for earnings from 2000 to 2011.

      an individual used one SSN for earnings from 1984 to 1994 and the other SSN
       for earnings from 1995 to 2006.

•    In five cases, work activity occurred under one SSN at the same time SSA was
     paying disability benefits under the other SSN. In these instances, earnings were
     not significant enough to affect benefit eligibility. However, it demonstrates the
     potential for illicit use of a second SSN.

•    In one case, SSA’s records indicated one numberholder was alive, but the other
     numberholder was deceased. A review of earnings and claim activity on both SSNs
     did not detect any fraudulent activity. However, the potential for fraud exists if these
     records are not cross-referred.

We discussed the six cases above with SSA’s Office of Operations staff who agreed
that SSA issued two SSNs to the same individuals and took action to cross-refer the
SSNs associated with these cases.

CONCLUSION AND RECOMMENDATION
SSA controls designed to prevent issuance of multiple SSNs to noncitizens have been
effective at preventing these occurrences, and the number of such cases has declined
significantly over the past 30 years. However, SSA’s records indicated that, on
occasion, the controls did not prevent the unauthorized issuance of multiple SSNs to
noncitizens. We identified 4,317 instances where SSA assigned noncitizens two SSNs
with matching first, middle, and last names; dates and places of birth; gender; and
fathers’ and mothers’ names. Noncitizens who obtain multiple SSNs have used, or
could use, the SSNs to defraud Federal benefit programs or to conceal work activity.
As a result, we recommend that SSA cross-reference the SSN pairs, as appropriate.

AGENCY COMMENTS
SSA agreed with our recommendation. See Appendix D for the Agency’s comments.




                                                       Patrick P. O’Carroll, Jr.

12
  Individuals earn Social Security “credits” by working and paying Social Security taxes. Individuals can
earn up to 4 credits per year and can qualify for disability benefits with as few as 6 credits and retirement
benefits with 40 credits.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Additional Background
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
ARN    Alien Registration Number
DHS    Department of Homeland Security
EAE    Enumeration-at-Entry
POMS   Program Operations Manual System
SSA    Social Security Administration
SSN    Social Security Number
                                                                      Appendix B

Additional Background
The Social Security Administration (SSA) developed policies and procedures to prevent
issuance of multiple Social Security numbers (SSN) to the same individual. For
example, when a noncitizen applies for an SSN in an SSA office, he/she is required to
present immigration documentation. In these cases, SSA personnel should request an
Alphident query using the name shown on a visa or passport, or Department of
Homeland Security documentation. If a possible SSN is identified, SSA personnel
should obtain applicable Numident records and compare the noncitizen’s name, date of
birth, gender, alien registration number, place of birth, and parents’ names to determine
whether the SSN(s) belonged to the noncitizen. 1

Moreover, SSA developed system controls to prevent issuance of multiple SSNs to the
same individual. SSA’s enumeration system matches data from all SSN applications
received on a given day against data from all other applications received the same day.
In addition, SSA’s automated enumeration screening process matches new applications
for an original SSN against all existing SSN records. If specific data elements on the
request for SSN match an existing SSN, SSA issues a replacement SSN card instead of
assigning a new SSN. When the elements match closely, but not exactly, SSA sends
the information to its Office of Operations for further review.




1
    SSA, POMS, RM 10205.600.E (effective April 3, 2012).
                                                                                    Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Interviewed Social Security Administration (SSA) personnel to gain an
    understanding of SSA’s enumeration process.

•   Reviewed SSA procedures for issuing Social Security numbers (SSN) to noncitizens
    and familiarized ourselves with system controls designed to prevent issuance of
    SSNs to individuals who previously obtained SSNs.

•   Analyzed SSA’s Numident file to identify instances where enumeration records for
    more than one non-citizen contained matching first name, middle initial or name, 1
    last name, date of birth, place of birth, gender, mother’s name, and father’s name.
    Our review included only enumeration records that identified the numberholder as a
    non-U.S. citizen. We removed all instances where SSA had cross-referred the
    matching records, indicating SSA was already aware it had issued multiple SSNs to
    the same individual.

•   Reviewed SSA’s Master Beneficiary Record, Supplemental Security Record, and
    Summary of Earnings Query for each matching record.

•   Analyzed matching SSN pairs to determine or identify (a) when and where SSA
    issued each SSN, (b) the enumeration source(s), (c) the length of time between SSN
    issuances, and (d) records with matching alien registration numbers.

•   Provided selected cases to SSA staff for review and verification.

We performed our review from August 2011 through June 2012 in Dallas, Texas. The
entity audited was the Office of Earnings, Enumeration and Administrative Systems
under the Office of the Deputy Commissioner for Systems. We tested the data obtained
for our audit and determined they were sufficiently reliable to meet our objective. We
conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.


1
  Our audit population included instances where (a) a middle initial or name appeared on only one record,
(b) a middle initial appeared on one record that matched the first letter of a middle name that appeared on
the other record, or (c) a middle name did not appear on either record.
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      November 9, 2012                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Noncitizens Issued Multiple Social Security
           Numbers” (A-06-10-20155)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comment.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENT ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“NONCITIZENS ISSUED MULTIPLE SOCIAL SECURITY NUMBERS”
(A-06-10-20155)

Recommendation 1

We recommend that SSA cross-reference the Social Security number pairs, as appropriate.

Response

We agree.




                                            D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Ashley Moore, Auditor-in-Charge

   Wanda Renteria, Senior Auditor

   Teresa Williams, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-06-10-20155.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
